Ti

@OCKLE

2311 Douglas Street j E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B re f 3 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-423

BRIAN KIRK MALPASSO and MARYLAND
STATE RIFLE AND PISTOL ASSOCIATION, INC.,
Petitioners,

Vv.
WILLIAM M. PALLOZZL in his official
capacity as Maryland Secretary of State Police,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE FIREARMS POLICY COALITION,
FIREARMS POLICY FOUNDATION, CALIFORNIA GUN RIGHTS FOUNDATION, MADISON SOCIETY
FOUNDATION, AND SECOND AMENDMENT FOUNDATION IN SUPPORT OF PETITIONERS in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOSEPH G.S. GREENLEE
FIREARMS POLICY COALITION
1215 K Street, 17th Floor
Sacramento, CA 95814
(916) 378-5785
jet@fpchq.org
Counsel of Record

Subscribed and sworn to before me this 30th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska . LE Qudraw- ,
My Commission Expires Nov 24, 2020 <

Notary Public Affiant

 

38833
SERVICE LIST

Paul D. Clement

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, NW
Washington, DC 20004

(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

Julia D. Bernhardt

Office of the Attorney General
200 Saint Paul Place, 20th Floor
Baltimore, MD 21202

(410) 576-7291
jbernhardt@oag.state.md.us
Counsel for Respondent
